Nos. 19-416 & 19-453

IN THE
Supreme Court of the United States

NESTLE USA, INC.,
Petitioner,
¥.

JOHN DOEI, ETAL.,
Respondents

CARGILL, INC.,
Petitioner,
v.

JOHN DOEI, er at.,
Respondents.

On Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
AMICUS CURIAE EARTHRIGHTS INTERNATIONAL IN SUPPORT OF
RESPONDENTS contains 7872 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

RICHARD HERZ O

EARTHRIGHTS INTERNATIONAL
1612 K St. NW, Ste. 800
Washington, DC 20006
(202) 466-5188
rick@earthrights.org
Counsel for amicus curiae
EarthRights International

Executed on October 20, 2020.
